Additional Copies
To obtain additional copies of this report, contact the Secondary Distribution Unit at
(703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ASA(ALT)                      Assistant Secretary of the Army for Acquisition, Logistics,
                                 and Technology
CNTPO                         Counter Narcoterrorism Technology Program Office
DSCA                          Defense Security Cooperation Agency
DASD(S&TS)                    Deputy Assistant Secretary of Defense, Strategic and
                                 Tactical Systems
FMS                           Foreign Military Sales
NSRWA                         Non-Standard Rotary Wing Aircraft
NTM-A/CSTC-A                  North Atlantic Treaty Organization Mission-Afghanistan/
                                 Combined Security Transition Command-Afghanistan
TSMO                          Threat Systems Management Office
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                 and Logistics


                                 FOR OFFICIAL USE ONLY 

FOR OFFICIAL USE ONLY 

RepottNo. DODIG-2012-036 (ProjectNo. D2011-DOOOAS-0030.000)                     Januaty 5, 2012




               Results in Brief: DoD Needs to Improve
               Accountability and Identify Costs and
               Requirements for Non-Standard Rotary Wing
               Aircraft

                                                      that all DoD procmement and suppolt of
What We Did                                           NSRWA effmts are sent to a single contracting
                                                      command, and implement the initiatives
We reviewed the management of the DoD
                                                      established in the November 3, 2010, better
acquisition and suppol1 of non-standard rotmy
                                                      buying power memorandum; and request the
wing aircraft (NSRWA). We estimated that
                                                      Deputy Secretaty of Defense to designate the
DoD obligated more than $1.6 billion over the
                                                      Army as the Executive Agent forNSRWA. In
last 5 years and planned for more than $1 billion
                                                      addition, the Assistant Secretmy of the Atmy for
in estimated future NSRWA efforts.
                                                      Acquisition, Logistics and Technology should
                                                      issue a fmmal chatter for the NSRWA Project
What We Found                                         Manager.
DoD officials did not adequately manage the
acquisition and support ofNSRWA.
                                                      Management Comments and
Specifically, DoD officials were unable to
identify a comprehensive list of all DoD-owned
                                                      Our Response
and suppmted Mi-17s, their total ownership            The Deputy Assistant Secretruy of Defense for
costs, and all planned requirements in suppol1 of     Strategic and Tactical Systems and the Deputy
these aircraft. This occmTed because the Under        Commanding General, Notth Atlantic Treaty
Secretmy of Defense for Acquisition,                  Organization Training Mission­
Technology, and Logistics (USD[AT&L])                 Afghanistan/Combined Secmity Transition
established the NSRWA Project Management              Command-Afghanistan, provided comments
Office as a temporaty solution without fully          that were partially responsive. We request that
authorizing the project manager and his staff to      the USD(AT&L) and the Assistant Secretaty of
make DoD-wide decisions and did not follow            the Atmy for Acquisition, Logistics, and
the Defense acquisition process, even though it       Technology provide comments in response to
met the requirements of a major defense               this repmt by Febmruy 6, 2012. Please see the
acquisition program. As a result, DoD may not         recommendations table on the back of this page.
have achieved the best value for the more than
$1.6 billion NSRWA effmt and is at risk for
inadequate management of the more than
$1 billion in estimated future costs.


What We Recommend
We recommend that the USD(AT&L) establish
theNSRWA program as a long tetm effort and
designate it with a Defense acquisition program
categmy; identify and develop the acquisition
documents required for the program; require


                                        F8R8FPICIM5
Report No. DODIG-2012-036 (Project No. D2011-D000AS-0030.000)         January 5, 2012

Recommendations Table

             Management                   Recommendations      No Additional
                                         Requiring Comment   Comments Required
Under Secretary of Defense for                      1.a-e
Acquisition, Technology, and Logistics
Assistant Secretary of the Army for                  2
Acquisition, Logistics, and Technology


Please provide comments by February 6, 2012.




                                   FOR OFFICIAL USE ONLY
                                               ii
Table of Contents

   Introduction	                                                                 1
 

        Objective                                                                1 

        Background of NSRWA                                                      1 

        Lack of Internal Controls for Management of NSRWA                        4 


   Finding. 	DoD-Wide Management Needed for Billions Obligated on the 

             Acquisition and Support of Foreign Aircraft                         5 


        NSRWA Management Needs Improvement                                       5 

        Temporary Solution to Support Partner Nations                           11 

        Army Officials Lack Authority to Manage NSRWA                           12
 
        NSRWA Program Needs to Follow the DoD Acquisition Process               13
 
        Future Accountability Is Needed                                         16 

        Conclusion                                                              17
 
        Management Comments on the Finding and Our Response                     17 

        Recommendations, Management Comments, and Our Response                  18 

        Management Comments on the Internal Controls and Our Response           25 

        Management Comments on the Appendices and Our Response                  26 


   Appendices

        A. 	Scope and Methodology                                               27 

              Use of Computer-Processed Data                                    28 

              Prior Coverage                                                    28 

        B. Mi-17 Pseudo-FMS Cases 	                                             29
 
        C. Mi-17 Contracts 	                                                    30
 
        D. Defense Acquisition Criteria 	                                       31
 
    
   Management Comments

        Office of the Under Secretary of Defense for Acquisition, Technology, 

           and Logistics                                                        33 

        North Atlantic Treaty Organization Training Mission-Afghanistan/ 

           Combined Security Transition Command-Afghanistan                     45
 
         




                           FOR OFFICIAL USE ONLY 

FOR OFFICIAL USE ONLY 

Introduction
Objective
The audit objective was to determine whether DoD officials effectively managed the
acquisition and support of non-standard rotary wing aircraft (NSRWA), including aircraft
acquired with the Afghanistan Security Forces Fund. See Appendix A for a discussion of
our scope and methodology as well as the prior audit coverage.

Background of NSRWA
(FOUO) According to a DoD official, NSRWA are any aircraft that are not part of DoD’s
standard U.S. inventory, including Mi-17, Mi-35, UH-1, MD-530F, and AW-139
helicopters. In 1985, the U.S. Army began operating a small fleet of Russian fixed and
rotary wing aircraft, such as the Mi-17, for training purposes. In 2005, the Army
expanded its Mi-17 mission and partnered with the Office of the Secretary of
Defense-Counternarcotics to train foreign pilots in Mi-17 aircraft operations. Mi-17s
along with other NSRWA are used by U.S. partner nations such as Iraq, Afghanistan,
Pakistan, and Yemen.

(FOUO) The Mi-17 has been used to support the United States and partner nations’
counterterrorism efforts. The Mi-17 is a Russian-made, medium-lift utility helicopter
that can perform both attack and movement missions and is one of the most common
helicopters in the world. The Mi-17 is manufactured in Russia at the Kazan helicopter
and the Ulan-Ude aviation plants. The U.S. Government procured Mi-17s to provide
partner nations assistance and address their immediate operational requirements
associated with counterterrorism efforts. For example, the governments of Iraq, Pakistan,
and Afghanistan requested that the United States provide Mi-17 support for their
counterterrorism efforts. The Afghans have been using Mi-17 helicopters since the early
1980s due to the aircraft’s ability to operate in the country’s severe environment and fly
at high altitudes and in high temperatures with heavy loads (see Figure 2).

Figure 2. Afghan National Army Commandos Board an Mi-17 in Afghanistan




                              Source: www.defenseimagery.mil



                             FOR OFFICIAL USE ONLY
                                       1
Congressional Concerns Over the Mi-17 Aircraft
In 2009, two members of Congress raised concerns about DoD Mi-17 purchases for Iraq
and Afghanistan. On October 21, 2009, Senator Richard Shelby from Alabama sent a
letter to the Secretary of Defense citing concerns regarding the oversight of the program
to purchase Mi-17 aircraft. Senator Shelby stated that the decision to purchase Mi-17s
was made without consideration of requirements or contract competition. The senator
also stated that the United States had spent approximately $807 million to purchase
Mi-17s without considering other airframes and that there was no predictability of funds
to support Mi-17 procurements.

On December 17, 2009, former Senator Chris Dodd from Connecticut sent a letter to the
Secretary of Defense that addressed concerns about the use of no-bid contracts to acquire
Mi-17 aircraft to support Iraqi and Afghan security forces. Senator Dodd stated he was
informed that DoD selected Mi-17 aircraft because the Afghans are more familiar with
the Russian-made airframe than with aircraft manufactured by American companies.
Senator Dodd further stated that because Mi-17 aircraft are financed through Iraq and
Afghanistan Security Funds, it is difficult to predict future training and maintenance
costs.

NSRWA Policy Memoranda
On November 2, 2009, the Acting Assistant Secretary of the Army for Acquisition,
Logistics and Technology (ASA[ALT]) issued a memorandum citing concerns regarding
the procurement, training, and sustainment for Mi-17s. He stated that Mi-17 activities
had no institutional framework and were approaching “program-like” characteristics. He
stated further that this occurred because Mi-17 efforts did not have the resources required
for an effective program because Mi-17 activities lacked a formal DoD acquisition
program designation. Finally, he said that a program manager was necessary to ensure a
successful program with safe operations and airworthiness for DoD-owned Mi-17s.

On January 6, 2010, the Acting ASA(ALT) issued a memorandum that directed the U.S.
Army Contracting Command-Redstone1 in Huntsville, Alabama, to execute the
procurement of all NSRWA requirements. The Acting ASA(ALT) required that all
Army Heads of Contracting Activities cease NSRWA procurements and directed future
requirements to the U.S. Army Contracting Command-Redstone.

On January 19, 2010, the Under Secretary of Defense for Acquisition, Technology and
Logistics (USD[AT&L]) issued an Acquisition Decision Memorandum in response to the
November 2, 2009, Acting ASA(ALT) memorandum. As an interim solution, he
designated the U.S. Army as the lead Service for DoD in performing procurement and
support activities for Mi-17s and potentially other NSRWA as directed by the Under
Secretary of Defense for Policy. He then directed the Army to establish a Project
Management Office responsible for executing all procurement, sustainment, and


1
 The U.S. Army Contracting Command-Redstone was previously known as the U.S. Army Aviation and
Missile Command Acquisition Center.

                               FOR OFFICIAL USE ONLY
                                         2
technical support to meet requirements of these aircraft for DoD and partner nations such
as Afghanistan, Iraq, and Pakistan. In addition, the USD(AT&L) stated that he would
provide additional direction as the U.S. Army developed its lead Service approach.

On November 5, 2010, the ASA(ALT) issued a memorandum to the Heads of U.S. Army
Contract Activities establishing the NSRWA procurement process and designating the
U.S. Army Contracting Command-Redstone as the single DoD contracting organization
responsible for pre-award and post-award functions dealing with NSRWA acquired by
the U.S. Government. The procurement process memorandum provided the U.S. Army
Contracting Command-Redstone the opportunity to review NSRWA requirements to
determine whether the contracting command had the capability to procure the items
within the specified timelines.

The NSRWA Project Management Office
As a result of the ASA(ALT) and USD(AT&L) memoranda, U.S. Army officials
established the NSRWA Project Management Office at Redstone Arsenal in Huntsville,
Alabama, under the U.S. Army Program Executive Office for Aviation. The U.S. Army
Program Executive Office for Aviation subsequently issued the NSRWA Project
Manager’s charter on July 1, 2010. The charter states that the NSRWA Project
Management Office’s mission is to procure, field, and sustain NSRWA for DoD, allied
countries, or as directed by the Under Secretary of Defense for Policy in support of other
contingency operations. Specifically, the NSRWA Project Management Office efforts
consisted of the procurement of aircraft, parts, modification and overhauls, and logistical
support for maintaining and sustaining the aircraft.

Pseudo-Foreign Military Sales Process
DoD generally procured NSRWA such as the Mi-17 for partner nations using the
pseudo-Foreign Military Sales (FMS) process. The Counter Narcoterrorism Technology
Program Office (CNTPO), U.S. Central Command, and the U.S. Special Operations
Command provided a limited amount of NSRWA and NSRWA support without using the
pseudo-FMS process.

The Defense Security Cooperation Agency (DSCA) administered the pseudo-FMS
process using U.S. appropriated funds to support U.S. procurement of goods and services
for the Iraqi and Afghan governments. Subsequently, other countries, such as Pakistan
and Yemen, received U.S. appropriated funds for NSRWA support and followed the
pseudo-FMS process. There were at least 32 pseudo-FMS cases supporting NSRWA
efforts.

The pseudo-FMS process consists of a U.S. Government organization sending a
memorandum of request to DSCA to fund specific assistance. DSCA then assigns the
request to a DoD implementing agency. The implementing agency prepares a letter of
acceptance, which is a signed government-to-government agreement, commonly referred
to as a pseudo-FMS case.



                             FOR OFFICIAL USE ONLY
                                       3
U.S. Army Audit Agency Report on Mi-17 Helicopters
(FOUO) On February 11, 2011, the U.S. Army Audit Agency issued Report
No. A-2011-0060-ALM, “Mi-17 Helicopter Airworthiness and Flight Safety.” The
report concluded that the Army does not have the complete technical knowledge needed
to establish and sustain an airworthiness certification for Mi-17s at the same level as
standard Army military aircraft. The report also stated that the Office of the Secretary of
Defense’s strategy to fund the NSRWA Project Management Office using customers’
reimbursable funds was risky due to the uncertain availability of future overseas
contingency operations funding.

Lack of Internal Controls for Management of NSRWA
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the management and oversight of NSRWA. Specifically, the
USD(AT&L) did not provide adequate authorization to the NSRWA Project Manager or
require that NSRWA efforts follow the Defense acquisition process. For specific results
of these weaknesses, see the Finding of this report. We will provide a copy of the report
to the senior officials responsible for internal controls at the Office of the USD(AT&L).




                             FOR OFFICIAL USE ONLY
                                       4
Finding. DoD-Wide Management Needed for
Billions Obligated on the Acquisition and
Support of Foreign Aircraft
DoD officials did not adequately manage the acquisition and support of NSRWA.
Specifically, DoD officials were unable to identify a comprehensive list of all
DoD-owned and supported Mi-17s,2 their total ownership costs, and all planned
requirements in support of these aircraft. This occurred because the USD(AT&L)
established the NSRWA Project Management Office as a temporary solution without
fully authorizing the project manager and his staff to make DoD-wide decisions and did
not follow the Defense acquisition process, even though it met the requirements of a
major defense acquisition program. As a result, DoD may not have achieved the best
value for the more than $1.6 billion NSRWA effort and is at risk for inadequate
management of the more than $1 billion in estimated future costs.

NSRWA Management Needs Improvement
The USD(AT&L) did not implement an adequate management process for the acquisition
and support of NSRWA across DoD. DoD Directive 5000.01, “Defense Acquisition
System,” November 20, 2007, states that the program manager is designated with the
responsibility for and authority to accomplish program objectives for development,
production, and sustainment to meet the user’s operational needs. The program manager
is also accountable for credible cost, schedule, and performance. However, NSRWA
Project Management Office personnel did not effectively implement fiscal management
controls. Specifically, they could not verify the total number of DoD owned or supported
aircraft, calculate total ownership costs, or implement an affordability-based
decisionmaking process for planned or future NSRWA requirements.

In addition, USD(AT&L) officials did not require that the NSRWA Project Management
Office officials apply the requirements of a Defense acquisition program to the
acquisition and support of NSRWA efforts. For example, the NSRWA Project
Management Office officials did not perform long term acquisition planning or create an
overall DoD-wide acquisition strategy for NSRWA. An acquisition strategy identifies
the program manager’s goals to minimize the costs and time while ensuring affordability
throughout the life cycle of the program. Without an overall acquisition strategy, DoD
has no assurance that the NSRWA Project Management Office chose the best approach
for fulfilling DoD or U.S. partner nations needs.

According to DoD Directive 5101.1, “DoD Executive Agent,” November 21, 2003, an
Executive Agent is the head of a DoD Component, to which the Secretary of Defense or
Deputy Secretary of Defense assigns specific responsibilities, functions, and authorities


2
 We focused on Mi-17s in this report because 80 percent of NSRWA Project Management Office activities
were related to the Russian Mi-17 helicopters.

                                FOR OFFICIAL USE ONLY
                                          5
to provide mission support or other activities involving more than one DoD Component.
DoD Directive 5101.1 also states that the Executive Agent’s authority will take
precedence over the authority of other DoD Components that perform related
responsibilities and functions. The Office of the Secretary of Defense should oversee
DoD Executive Agent activities in their functional areas of responsibility.

Although the USD(AT&L) established the NSRWA Project Management Office in
January 2010, as the DoD lead for the procurement, sustainment, and technical support
activities of NSRWA, the USD(AT&L) should have requested that the Deputy Secretary
of Defense designate the U.S. Army as the DoD Executive Agent for NSRWA. This
designation would have provided the Army with the necessary responsibility and
authority to manage all NSRWA such as Mi-17s and accomplish their mission. Army
officials would have also been able to make DoD-wide decisions and establish DoD-wide
standards.

DoD Mi-17 Aircraft Reported
As shown in Table 1, the NSRWA Project Management Office and U.S. Central
Command provided conflicting numbers of DoD-owned and supported Mi-17 aircraft. In
January 2011 and March 2011, we requested that the NSRWA Project Management
Office provide a list of all Mi-17s that they managed, to include those owned by the U.S.
Government and those owned by foreign governments but supported by DoD. On
March 17, 2011, NSRWA Project Management Office personnel stated that they
managed a Mi-17 fleet of 142 aircraft; however, 21 Mi-17s were under contract
negotiations and not yet acquired. NSRWA Project Management Office personnel stated
that they did not have a system that could verify their numbers of Mi-17 aircraft and their
related requirements. Additionally, NSRWA Project Management Office personnel were
unable to verify whether all Mi-17 requirements were received by the NSRWA Project
Management Office. In March 2011, we asked U.S. Central Command to provide a list
of Mi-17s within their area of responsibility, to include those owned by the U.S.
Government and those owned by foreign governments but supported by DoD. As of
March 14, 2011, the U.S. Central Command reported a total of 177 Mi-17s. The
inconsistent numbers of aircraft reported indicate the lack of an entity within DoD for
managing NSRWA across DoD.




                             FOR OFFICIAL USE ONLY
                                       6
     Table 1. DoD-Owned or-Supported Mi-17s Reported by the NSRWA Project 

                  Management Office and U.S. Central Command 

Location                       NSRWA Project           U.S. Central Command
                              Management Office
Iraq                                   39                         38
                                          *
Afghanistan                            56                         55
Pakistan                               20                         59
Yemen                                   0                         22
Fort Rucker                             6                       N/A
Tajikistan                              0                          3
  Total                               121                       177
* We did not include the additional 21 Mi-17s that the NSRWA PMO reported because the aircraft were
under contract negotiations and not yet acquired.

Lack of NSRWA Fiscal Management
DoD had no entity or system in place that tracks total ownership costs, such as
                                      sustainment, for all DoD owned and supported
   DoD had no entity or system in     NSRWA. We estimated that over the last 5 years,
        place that tracks total       DoD officials obligated more than $1.6 billion in
       ownership costs, such as       pseudo-FMS cases and contracts and planned for
   sustainment, for all DoD owned     $1 billion in estimated future costs for Mi-17s.
       and supported NSRWA.           When we requested total ownership costs, five
                                      DoD activities provided different numbers for
related costs and the number of DoD-managed Mi-17s. 3

NSRWA Total Ownership Costs
(FOUO) DoD officials were not able to identify or manage total ownership costs4 for
NSRWA. Specifically, the NSRWA Project Management Office was unable to provide
total sustainment costs for Mi-17s. The Deputy Secretary of Defense directed an
NSRWA study,5 which was issued on November 2, 2010. The NSRWA study
determined that the sustainment cost of a single Mi-176 was $61 million and the average
service life was 20 years. The U.S. Central Command and NSRWA Project Management



3
  The five activities were the Threat System Management Office, NSRWA Project Management Office, 

CNTPO, U.S. Central Command, and U.S. Special Operations Command. 

4
  According to the Defense Acquisition Guidebook, total ownership costs consist of all costs throughout the 

entire life of the program. Sustainment costs are an element of total ownership costs. 

5
  The Office of the Under Secretary of Defense for Policy, the Office of the Secretary of Defense for Cost 

Assessment and Program Evaluation, and the Joint Staff sponsored the NSRWA study. The NSRWA study 

reviewed industry rotary wing platforms available or in development, and assessed and prioritized

geographic combatant command needs for using our partner nation rotary wing capabilities to meet U.S. 

objectives. 

6
  (FOUO) The NSRWA study estimated the total sustainment costs of the Mi-17v5; the costs may vary for 

different versions of the aircraft.


                                   FOR OFFICIAL USE ONLY
                                             7
Office personnel reported a total of up to 183 Mi-17s7 currently supported by DoD that
would require long-term sustainment. Therefore, if DoD continues to support these
aircraft, at a sustainment cost of $61 million per aircraft, the 183 aircraft will cost more
than $11 billion to maintain over 20 years. DoD officials should develop a long-term
plan to determine the extent of overall sustainment provided to DoD owned and
supported Mi-17s and to assist in tracking total life-cycle costs of these aircraft.

In the January 2010 Acquisition Decision Memorandum, the USD(AT&L) stated that
DoD would develop a long-term plan for identifying partner-nation rotary-wing
requirements that is less dependent on foreign sources of supply. However, a
USD(AT&L) official stated on March 14, 2011, that there was no viable alternative to the
Mi-17 in the near future. According to DoD Instruction 5000.02, “Operation of the
Defense Acquisition System,” December 8, 2008, a life-cycle sustainment plan is part of
the acquisition strategy and includes planning to execute a program that meets
performance requirements to sustain a program over its life-cycle. Without a long-term
plan and a life-cycle sustainment plan, DoD officials cannot effectively plan for future
requirements, sustain a viable program, or reduce life-cycle costs for the NSRWA
program.

NSRWA Historical Data
DoD officials could not provide data to support historical costs of Mi-17s. According to
                                        NSRWA Project Management Office personnel, the
       When asked to provide            Threat Systems Management Office (TSMO)8
    Mi-17-related costs and their       managed the Mi-17 efforts before the NSRWA
    corresponding contracts, five       Project Management Office. On February 17, 2010,
       DoD activities provided          a TSMO official provided the audit team with two
        conflicting numbers of          contracts relating to Mi-17 efforts, totaling
    contracts and dollar amounts.       approximately $356.4 million. A TSMO official
                                        stated that they did not have complete or current
files and that they transferred all financial and programmatic data pertaining to the Mi-17
efforts to the NSRWA Project Management Office. The previous TSMO Division Chief
and Chief Engineer currently work for the NSRWA Project Management Office as the
Mi-17 Product Manager and Technical Chief, respectively. However, neither the TSMO
nor the NSRWA Project Management Office could provide reliable data to support the
historical costs for Mi-17s.

When asked to provide Mi-17-related costs and their corresponding contracts, five DoD
activities provided conflicting numbers of contracts and dollar amounts. In addition,
NSRWA Project Management Office personnel provided a listing of Mi-17-related
contracts that they managed and their costs, but there were additional costs and
requirements for Mi-17s that they were not tracking. Table 2 illustrates that the NSRWA
Project Management Office, U.S. Central Command, CNTPO, U.S. Special Operations


7
  The 183 Mi-17s include 177 reported by U.S. Central Command plus 6 Fort Rucker Mi-17s reported by

the NSRWA Project Management Office (see Table 1). 

8
  TSMO is under the U.S. Army Program Executive Office for Simulation, Training, and Instrumentation. 


                                 FOR OFFICIAL USE ONLY
                                           8
Command, and TSMO personnel all provided different numbers of contracts relating to
Mi-17s, which overlapped in some instances. For example, NSRWA Project
Management Office and U.S. Central Command personnel both reported five of the same
contract numbers, but U.S. Central Command personnel provided additional contracts
that were not reported by the NSRWA Project Management Office.

                  Table 2. Mi-17 Costs Reported by DoD Activities
   Reporting Activity          Number of Contracts         Amount Reported1
NSRWA Project                           13                      $632,278,753
Management Office
U.S. Central Command                    10                       419,373,121
CNTPO                                   13                     1,090,092,263
U.S. Special Operations                  8                        46,330,0002
Command
TSMO                                     2                       356,447,130
1
  We did not total these numbers because some contracts were reported more than once. See Table 3 for an 

estimated total of Mi-17-related costs. 

2
  The total Mi-17 costs reported by U.S. Special Operations Command officials did not equal the total costs 

of the eight contracts.


Estimated NSRWA Costs
We were unable to determine accurate historical costs from Mi-17 pseudo-FMS
cases (cases) and contracts provided by the five DoD Components shown in Table 2.
However, as shown in Table 3, we estimated that DoD officials obligated more than
$1.6 billion since 2006 on Mi-17-related costs based on the data provided. NSRWA
Project Management Office personnel stated that they did not know whether they were
capturing all requirements and that they relied on DSCA to capture total DoD-related
NSRWA costs. The DSCA records contained 32 Mi-17-related pseudo-FMS cases,
valued at over $1.25 billion for Afghanistan, Iraq, Pakistan, and Yemen. Out of the
32 cases, we were able to match 11 cases to a contract number, but we were unable to
associate the remaining 21 cases, worth approximately $381.4 million, to one or more
contracts. We included all 32 cases in our calculation of DoD costs for Mi-17 efforts.
See Appendix B for a list of Mi-17-related pseudo-FMS cases.

                       Table 3. DoD IG Estimated Mi-17 Costs
                              No. of Cases or Contracts          Costs
Pseudo-FMS cases                         32                  $1,258,641,721
Contracts                                17                     321,205,642
U.S. Special Operations                   8                      46,330,000*
Command Contracts
 Total                                                       $1,626,177,363
* U.S. Special Operations Command officials provided this amount as their total Mi-17-related costs;
however, it does not equal the total costs of the eight contracts.



                                   FOR OFFICIAL USE ONLY
                                             9
NSRWA Contracts in Transition
DoD officials used a decentralized contracting process to procure and support NSRWA
efforts by using seven contracting activities since 2007, which awarded a total of
34 Mi-17-related contracts. See Appendix C for the contracting activities and the
corresponding contracts. According to the Acting ASA(ALT)’s November 2, 2009
memorandum, efforts to manage Mi-17 procurement, sustainment, and training activities
were unsustainable and ad hoc. He also stated that there was no insight into the future
level of Mi-17 acquisition support sought by the Secretary of Defense. Consequently, he
stated that DoD officials could not plan or resource an effective program management
structure for NSRWA. In January 2010, the USD(AT&L) attempted to address this issue
by establishing the NSRWA Project Management Office as the DoD lead for the
procurement, sustainment, and technical support activities of NSRWA.

However, the NSRWA Project Management Office did not have responsibility for all
NSRWA contracts. Of the 34 Mi-17-related contracts awarded, 16 contracts were
awarded after the NSRWA Project Management Office was established by the
January 19, 2010, Acquisition Decision Memorandum, to manage Mi-17 procurement
and support activities. Of the 16 contracts, 14 were awarded by the U.S. Special
Operations Command, U.S. Army Space and Missile Defense Command/Army Forces
Strategic Command, Program Executive Office Simulation, Training and Instrumentation
Acquisition Center, and Kabul Regional Contracting Center officials.

The NSRWA Project Management Office expects to manage all Mi-17-related contracts
                            by FY 2012. CNTPO officials stated that the NSRWA
     The NSRWA Project      Project Management Office is planning to capture all
     Management Office      counter-narcoterrorism Mi-17 requirements under a new
    expects to manage all   indefinite-delivery, indefinite-quantity contract, which is
   Mi-17-related contracts  planned for award in FY 2012. CNTPO, U.S. Central
         by FY 2012.        Command, and U.S. Special Operations Command
                            officials expect to transfer all remaining Mi-17 contractor
support to the NSRWA Project Management Office no later than FY 2012.

On November 5, 2010, the ASA(ALT) issued a memorandum, “Procurement Process for
Non-Standard Rotary Wing Aircraft,” which designated the U.S. Army Contracting
Command–Redstone as the single DoD contracting organization responsible for
pre-award and post-award functions dealing with NSRWA acquired by the U.S.
Government. This procurement process memorandum also gave the U.S. Army
Contracting Command–Redstone the opportunity to review the requirements to determine
whether they had the capability to procure the items within the specified timelines. The
ASA(ALT) provided the U.S. Central Command-Joint Theater Support Contracting
Command the authority to acquire parts and services for Russian-made NSRWA when
the NSRWA Project Manager and U.S. Army Contracting Command determined that
they could not meet the required timelines. The memorandum also states that the U.S.
Central Command-Joint Theater Support Contracting Command may continue to procure
spares and repair parts using locally established contracts without coordination from the
NSRWA Project Manager until August 31, 2011. However, the ASA(ALT)

                            FOR OFFICIAL USE ONLY
                                      10
memorandum did not allow other contracting activities to process NSRWA requirements.
The USD(AT&L) should require that all DoD NSRWA procurement and support be sent
to a single contracting command to ensure that DoD receives the benefits of using a
centralized contracting office to achieve a better buying power.

Temporary Solution to Support Partner Nations
The USD(AT&L) established the NSRWA Project Management Office in January 2010
                                          as a temporary solution to the issues identified in
    The USD(AT&L) established the         the Acting ASA(ALT)’s November 2, 2009
     NSRWA Project Management             memorandum. The U.S. Army Program
      Office in January 2010 as a         Executive Officer for Aviation then issued an
    temporary solution to the issues      informal charter in July 2010 for the NSRWA
         identified in the Acting         Project Manager because Army officials were
     ASA(ALT)’s November 2, 2009          unsure if the NSRWA Project Management
              memorandum.                 Office was going to be a long-term effort.
                                         However, the USD(AT&L) has not issued further
guidance for the NSRWA efforts or re-assessed the temporary solution decision made in
the January 2010 Acquisition Decision Memorandum. On March 14, 2011, USD(AT&L)
officials stated that the NSRWA Acquisition Decision Memorandum clearly outlined the
Project Management Office’s required responsibilities. Although USD(AT&L) officials
were aware that a potential long term need existed for Mi-17s, they did not revise or
clarify the interim guidance that established the NSRWA Project Management Office and
its designated responsibilities.

(FOUO) A long term demand exists for the acquisition and support of NSRWA, such as
Mi-17s for DoD and U.S. partner nations. The “Report to Congress From DoD, Mi-17
Helicopters,” March 23, 2010, identified the current and expected demands of Mi-17s for
DoD and U.S. partner nations. The report to Congress stated that in the near term,
Afghanistan, and to a lesser extent Iraq and Pakistan, would likely continue to need the
U.S. Government and other partner nations to provide assistance with Mi-17
procurement, aircrew training, and associated maintenance activities. The report to
Congress also indicated that major Mi-17 purchases by partner nations suggest that
foreign reliance on the Mi-17 is likely to continue.

(FOUO) Additionally, the NSRWA Study stated that by 2014, it will be necessary to
overhaul or provide an alternate procurement strategy for many of the older Afghanistan
Mi-17s because they will be approaching the end of their expected service life. In total,
the NSRWA study identified 39 partner nations that would benefit from rotary wing
security force assistance. Security force assistance missions are efforts conducted
primarily in host countries to train, equip, advise, and assist those countries in becoming
more proficient in security. One of the key initiatives to support security force assistance
includes strengthening and expanding capabilities for training partner aviation forces,
which will continue to grow.




                              FOR OFFICIAL USE ONLY
                                        11
Army Officials Lack Authority to Manage NSRWA
As a lead Service, the U.S. Army lacked the authority to effectively procure, field, and
sustain NSRWA for DoD and partner nations. The January 19, 2010, USD(AT&L)
Acquisition Decision Memorandum stated that additional direction would be provided as
the Army developed the lead Service approach. However, as of August 2011, the
USD(AT&L) had not provided any further formal guidance or revised the Acquisition
Decision Memorandum. The USD(AT&L) also did not establish formal oversight for
cost, schedule, and performance of NSRWA efforts in the Acquisition Decision
Memorandum.

Limited Authority of the NSRWA Project Manager
The NSRWA Project Manager and his staff did not have authority to make DoD-wide
policy such as procurement decisions or decisions on airworthiness standards. The U.S.
                                   Army Program Executive Officer for Aviation issued
      The NSRWA Project            an informal charter for the NSRWA Project Manager
    Manager and his staff did      on July 1, 2010. In the charter, the Program Executive
   not have authority to make      Officer  for Aviation delegated the NSRWA Project
    DoD-wide policy such as        Manager with the responsibility to manage the
    procurement decisions or       NSRWA program resources, cost, schedule, and
   decisions on airworthiness      performance. He also required that the NSRWA
           standards.              Project Manager provide assessments of program
                                   status, risk, and contractor performance. However, the
charter only provided the project manager with authority to manage NSRWA within the
Department of the Army and did not specify to whom he was required to provide these
assessments.

Due to its limitations of direction and authority, the NSRWA Project Management Office
relied on USD(AT&L) representatives for instructions on making decisions that related to
the NSRWA efforts. NSRWA Project Management Office personnel stated that the
Office of the USD(AT&L) determined how many aircraft the NSRWA Project
Management Office would procure. NSRWA Project Management Office personnel also
stated that in some cases, requesting countries had to obtain permission from the
USD(AT&L) representatives before they engaged the NSRWA Project Management
Office to execute requirements.

(FOUO) NSRWA Project Management Office Officials also did not have authority to
make DoD-wide policy decisions on airworthiness standards. The U.S. Army Audit
Agency identified a difference in airworthiness requirements between the Army and the
Air Force. According to U.S. Army Audit Agency Report No. A-2011-0060-ALM,
“Mi-17 Helicopter Airworthiness and Flight Safety,” February 11, 2011, the Air Force’s
airworthiness process did not fully satisfy the Army’s airworthiness requirements. The
Army stated that their airworthiness requirements are in compliance with aviation
industry standards. The report further stated that the U.S. Army airworthiness
certification covered only approximately 20 percent of the Afghanistan fleet, which
significantly reduced the number of aircraft that could transport U.S. Army military,
civilian, and contractor personnel.

                             FOR OFFICIAL USE ONLY
                                       12
(FOUO) The U.S. Army Audit Agency recommended that the Secretary of Defense and
Army leadership coordinate a memorandum of agreement to develop a common
airworthiness standard across the Services to bring consistency to the Mi-17 fleet in
Afghanistan. The ASA(ALT) stated in his response to the report that the Secretary of
Defense initiated an airworthiness study to resolve this issue in October 2010 and
planned to require the Services to process similar airworthiness standards. The
airworthiness study had not been completed as of July 6, 2011, according to a
representative from the Joint Chiefs of Staff for Force Structure, Resources, and
Assessment Directorate.

The USD(AT&L) should request that the Deputy Secretary of Defense designate the U.S.
Army as the DoD Executive Agent for NSRWA. The ASA(ALT) should then issue a
formal charter for the NSRWA Project Manager to incorporate the updated requirements
and authorities provided to the Army.

NSRWA Program Needs to Follow the DoD Acquisition
Process
The DoD NSRWA program should be designated as a major Defense acquisition
                                 program because it meets the criteria established in
   The DoD NSRWA program         DoD Instruction 5000.02. DoD Directive 5000.01
   should be a major Defense     states that the Defense Acquisition System is the
  acquisition program because management process used by DoD to provide
      it meets the criteria      effective, affordable, and timely systems to the users.
       established in DoD        DoD Instruction 5000.02 implements the requirements
      Instruction 5000.02.       of the DoD acquisition system outlined in DoD
                                 Directive 5000.01. According to DoD Instruction
5000.02, a program is a major Defense acquisition program when

        costs exceed $365 million in Research, Development, Test and Evaluation funds
         in FY 2000 constant dollars;
        costs exceed $2.19 billion in procurement funds in FY 2000 constant dollars; or
        the Milestone Decision Authority designates the program as a special interest
         program.9

The NSRWA program meets the criteria for a Defense acquisition program for several
reasons. The USD(AT&L) designated the NSRWA program as a special interest, and
members of Congress expressed interest as well as their concerns regarding Mi-17s. In
the January 2010 Acquisition Decision Memorandum, the USD(AT&L) designated the
NSRWA program as a special interest acquisition without an acquisition category or a



9
  DoD Instruction 5000.02 states that designation of a special interest program is based on one or more of
the following factors: the program is technologically complex, Congress has an interest in the program, a
large amount of resources has been committed, the program is critical to the achievement of a capability or
set of capabilities, and the program is a joint program.

                                   FOR OFFICIAL USE ONLY
                                             13
framework to effectively manage the program. The NSRWA program was viewed as a
temporary solution to fulfill the NSRWA needs of the DoD and U.S. partner nations.

We were unable to determine whether the cost of the NSRWA program met the
procurement dollar threshold of a major Defense acquisition program because of the
method DoD officials used to acquire Mi-17s. Regardless of the type of funding used,
the total NSRWA program costs are approaching those of a major Defense acquisition
program. We used the costs identified in the Mi-17 cases, contracts, and acquisition
planning documents to estimate the total NSRWA program costs are approximately
$2.7 billion, which is more than $2.19 billion in FY 2000 constant dollars.

USD(AT&L) officials did not believe it was necessary to designate the program with an
acquisition category because it did not meet the procurement dollar threshold of a formal
acquisition category designation. USD(AT&L) officials stated that a special interest
acquisition has the same requirements as a Defense acquisition program. However, DoD
Instruction 5000.02 provides limited guidance on special interest acquisitions and does
not provide the same requirements for a special interest acquisition without a specific
Defense acquisition program category designation. For example, DoD
Instruction 5000.02 requires only independent assessments and notification of the
USD(AT&L) of any proposed acquisition of non-information technology services over
$1 billion. Therefore, the USD(AT&L) should establish the NSRWA program as a long
term-effort and designate it with the appropriate Defense acquisition program category.

No Entity Responsible for DoD-Wide Acquisition Planning
The USD(AT&L) did not establish an entity to perform acquisition planning for
NSRWA. Specifically, the NSRWA Project Management Office did not create an overall
                        acquisition strategy to procure and sustain Mi-17 aircraft.
   The USD(AT&L)        Army Regulation 70-1, Chapter 4, “Acquisition Strategy,”
  did not establish an  states that each project manager must develop and document an
   entity to perform    acquisition strategy to guide program execution. The
 acquisition planning acquisition strategy must address the project manager’s total
      for NSRWA.        life-cycle management responsibility, with the primary goal of
                        minimizing the time and cost it takes to satisfy validated needs
and maximizing affordability throughout a program’s useful life cycle.

NSRWA Project Management Office personnel created individual acquisition plans for
each procurement request they received but did not have an overall acquisition strategy.
In addition, a USD(AT&L) official stated that DoD requests NSRWA aircraft and
continued support of U.S. partner nations in 1-year funding10 requests and does not plan
for future years. With the size and complexity of the NSRWA program, the NSRWA
Project Management Office should have an overall acquisition strategy to verify and
provide accountability for costs, schedules, and performance levels. Without an overall


10
  According to an Under Secretary of Defense for Cost Assessment and Program Evaluation
representative, any Mi-17-related assistance provided to partner nations are funded year-to-year by security
force assistance funding such as the Afghanistan and Iraq security force funds.

                                   FOR OFFICIAL USE ONLY
                                             14
acquisition strategy, DoD officials also had no assurance that they chose the best
approach for fulfilling the needs of the DoD or U.S. partner nations.

Acquisition Documentation
The NSRWA Project Management Office personnel did not create and maintain
documentation that would assist the project manager in effectively managing the
program. According to DoD Instruction 5000.02, the Defense acquisition system
provides a simplified and flexible management framework for translating capability
needs and technology opportunities into stable, affordable, and well-managed acquisition
programs. DoD Instruction 5000.02 also describes the required documentation for any
Defense acquisition program. Therefore, the USD(AT&L) should require that NSRWA
Project Management Office personnel develop the required acquisition documentation to
assist the project manager in achieving and realizing the better buying power and
efficiencies identified in DoD Instruction 5000.02, such as an overall acquisition strategy,
acquisition program baseline, and affordability assessment.

NSRWA Project Management Office personnel need to create an overall or DoD-wide
acquisition strategy, to develop the best approach for fulfilling the needs of the DoD and
U.S. partner nations and to improve the buying power for NSRWA. DoD
Instruction 5000.02 states that an acquisition strategy sets cost, schedule, and
performance goals.

NSRWA Project Management Office personnel also need to create an acquisition
                                             program baseline to assist the project
    The NSRWA Project Management             manager in determining DoD’s total
    Office personnel need to create an       ownership costs for NSRWA. According to
     overall or DoD-wide acquisition         DoD Instruction 5000.02, an acquisition
  strategy, to develop the best approach     program baseline describes the cost estimate
  for fulfilling the needs of the DoD and    for schedule, performance, and supportability
   U.S. partner nations and to improve       of a program. Developing an acquisition
       the buying power for NSRWA.           program baseline also enables NSRWA
                                             Project Management Office personnel to
identify and track the costs associated with Mi-17s and to perform long-term planning for
future Mi-17 needs.

Additionally, NSRWA Project Management Office personnel should develop an
affordability assessment to enable the project manager to make reliable business
decisions for the NSRWA program and to perform strategic planning for long-term costs.
An affordability assessment is a determination that the life-cycle cost of a program meets
the DoD’s long term investment and force structure plans for a program. DoD
Instruction 5000.02 states that an affordability assessment is required for a Defense
acquisition program.

By following DoD Instruction 5000.02, NSRWA Project Management Office personnel
could achieve better buying efficiencies, reduce life-cycle costs, and support reliable
business decisions for NSRWA requirements and costs. See Appendix D for list of

                             FOR OFFICIAL USE ONLY
                                       15
acquisition documents for all Defense acquisition programs required by DoD
Instruction 5000.02 to provide historical decisions and information as the program
progresses.

Future Accountability Is Needed
(FOUO) DoD officials identified more than $1 billion in estimated future Mi-17-related
costs through FY 2017 without an overall DoD-wide strategy. U.S. Special Operations
                                 Command officials identified $638.6 million11 for the
    DoD officials planned for    procurement and sustainment of Mi-17s from FY 2012
     more than $1 billion in     through FY 2017. NSRWA Project Management
         estimated future        Office personnel stated that the Project Management
  Mi-17-related costs through    Office planned for $114 million to demilitarize
   FY 2017 without an overall    38 Mi-17s between FY 2012 and FY 2017. NSRWA
       DoD-wide strategy.        Project Management Office personnel also estimated
                                 $282 million for the purchase of up to 12 Mi-17s for
Afghanistan during FY 2012 through FY 2015.12

The NSRWA Project Management Office should implement an affordability-based
decisionmaking process for the NSRWA program. On November 3, 2010, the
USD(AT&L) issued a memorandum, “Implementation Directive for Better Buying
Power-Obtaining Greater Efficiency and Productivity in Defense Spending.” The
memorandum established five initiatives for the Military Departments and Defense
agencies to use to obtain greater efficiency and productivity in Defense spending:

        target affordability and control cost growth,
        incentivize productivity and innovation in industry,
        promote real competition,
        improve tradecraft in services acquisition, and
        reduce nonproductive processes and bureaucracy.

One of the initiatives established a requirement to implement affordability-based
decisionmaking for Defense acquisition programs by establishing cost targets. The
memorandum states that affordability should be considered throughout the acquisition
process to ensure cost-effectiveness. By implementing this initiative, NSRWA Project
Management Office personnel would establish cost targets and perform assessments that
analyze alternative solutions, to determine the affordability of the NSRWA program or
identify future costs of the program. The USD(AT&L) should require that the NSRWA
Project Management Office implement the initiatives established in the November 3,
2010, memorandum to the greatest extent practical.




11
   (FOUO) Of this amount, $585.3 million is for a U.S. Special Operations Command non-standard rotary

wing battalion, which is an unfunded Defense acquisition Category III program.

12
   This requirement is unfunded according to the Secretary of the Army memorandum, “Public Interest

Determination and Finding for the Mi-17,” January 18, 2011.


                                 FOR OFFICIAL USE ONLY
                                           16
Conclusion
Although the USD(AT&L) designated the U.S. Army the lead Service for NSRWA
activities, it did not provide them with a framework to effectively manage the NSRWA.
Specifically, the USD(AT&L) did not require that the Army make DoD-wide decisions
or perform acquisition planning for NSRWA activities. Because of this, DoD officials
obligated more than $1.6 billion to procure, maintain, and support the Mi 17 and planned
for more than $1 billion in estimated future costs by using a fragmented contracting
approach outside the Defense acquisition system process. DoD officials also did not
determine total costs for NSRWA and are at risk for increased costs, schedule delays, and
failure to meet the needs of partner nations such as Iraq, Afghanistan, Pakistan, and
Yemen. The USD(AT&L) should request that the Deputy Secretary of Defense designate
the Army as the Executive Agent for NSRWA and designate the NSRWA efforts as a
Defense acquisition program with an appropriate acquisition category designation. This
would enable the NSRWA Project Management Office personnel to have the authority to
make DoD-wide business decisions and establish DoD wide standards, and create and
maintain documentation that would provide the transparency needed to effectively run
the program.

Management Comments on the Finding and Our
Response
The Deputy Assistant Secretary of Defense for Strategic and Tactical Systems
(DASD[S&TS]) commented on behalf of the USD(AT&L).

Office of USD(AT&L) Comments on the Finding
The DASD(S&TS) provided comments on the finding. He stated that the estimated
$1 billion in future NSRWA costs for potential actions did not account for the differences
in the initial estimates from the Project Management Office and actual budgetary requests
from DoD, which are significantly lower.

The DASD(S&TS) stated that the difference between the number of aircraft reported by
the NSRWA Project Management Office and U.S. Central Command did not suggest a
lack of management. Rather, the differences in the number of aircraft can be traced to
aircraft owned by countries that did not request United States support.

Additionally, the DASD(S&TS) stated that the NSRWA Project Management Office was
not a temporary solution for addressing partner-nation rotary-wing requirements. He
stated the project management office was the first step in the DoD’s long-term plan for
partner-nation rotary-wing requirements that is less dependent on foreign sources of
supply. He stated, however, that DoD is still developing this long-term plan. He further
stated that the audit was conducted during the time the NSRWA Project Management
Office was being staffed, was involved with ongoing procurement bid protest litigation,
and contracts were being transitioned.




                             FOR OFFICIAL USE ONLY
                                       17
Our Response
The $1 billion in estimated future costs included estimates we received for the NSRWA
Project Management Office and the U.S. Special Operations Command. The NSRWA
Project Management Office was not required to prepare a budget because it is funded
through customer reimbursements; therefore, these estimates were the only
documentation of future requirements available. The lack of formal budget planning
demonstrates the overall lack of strategic planning for NSRWA efforts.

The NSRWA Project Management Office and U.S. Central Command provided listings
of DoD-managed and -supported Mi-17s as identified in Table 1 of the report. As stated
in the report, in January and March 2011, we requested that the NSRWA Project
Management Office provide a listing of all Mi-17s that it managed, to include those
owned by the U.S. Government and those owned by foreign governments but supported
by DoD. In March 2011, we asked the U.S. Central Command to provide a list of Mi-17s
within its area of responsibility, to include those owned by the U.S. Government and
those owned by foreign governments but supported by DoD. As shown in Table 1 of the
report, the aircraft reported by location differed. The aircraft reported also did not
account for U.S. Special Operations Command aircraft. The difference in the numbers of
aircraft reported clearly illustrated that there was no central activity within DoD that had
the authority to gain the necessary information to manage all NSRWA.

The NSRWA Project Management Office was established as a temporary solution in the
January 2010 USD(AT&L) Acquisition Decision Memorandum. The Acquisition
Decision Memorandum states that the Army should establish a Project Management
Office in the interim while DoD develops a long-term plan for U.S. partner-nation
rotary-wing requirements. However, the plan has still not been developed according to
the DASD(S&TS).

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of management comments and to clarify our intent, we revised
Recommendation 1.d to request that the DASD(S&TS) coordinate with U.S. Special
Operations Command and the North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A) to
develop an overall, long-term acquisition strategy for DoD.

1. We recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics:

      a. Request that the Deputy Secretary of Defense designate the Army as the
Executive Agent for non-standard rotary wing aircraft.




                             FOR OFFICIAL USE ONLY
                                       18
Office of USD(AT&L) Comments
The DASD(S&TS) disagreed. He stated that although NSRWA procurement and
sustainment efforts need a single manager, they should not be consolidated by
designating the Army as an Executive Agent. He explained that Executive Agent
designations are reserved for occasions when no existing means to accomplish an
objective exists and when DoD resources need to be focused on specific areas to
minimize duplication and redundancy, or when designated by law, Executive order, or
Government-wide regulation. The DASD(S&TS) stated that none of these conditions
currently exist. He also stated that the DoD exercised existing means to focus NSRWA
purchasing challenges through the USD(AT&L) Acquisition Decision Memorandum by
directing the Army to establish a NSRWA Project Management Office that would have
sole responsibility for NSRWA acquisition activities. According to the DASD(S&TS),
the NSRWA Project Management Office is under the oversight of the U.S. Army
Aviation Program Executive Officer and has expert support available from the Army
Aviation Engineering Directorate. The DASD(S&TS) further stated that our
recommendation is based on the conclusion that effective management of NSRWA
requires the Army to make DoD-wide decisions for NSRWA activities. He explained
that the Army provides advice in NSRWA policy, but the overarching United States
policy initiative to build partner-nation capability is directed by the Secretary of State, the
Under Secretary of Defense (Policy), and Combatant Commanders.

The DASD(S&TS) stated that DoD is currently satisfied that the NSRWA Project
Management Office is the most effective means to manage NSRWA procurement and
support activities. He explained that program office staffing and contract transition
activities are now complete and thus, the project management office has full acquisition
capacity. The DASD(S&TS) further stated that an Executive Agent designation will
incur unnecessary additional responsibilities and costs, such as the need to report
requirements and resources in the DoD Component’s budget documentation. He stated
that these additional responsibilities will be problematic for NSRWA because the Army
does not have any funding responsibilities for NSRWA. He explained that most NSRWA
Project Management Office operations are funded on a customer-reimbursable basis by
FMS, overseas contingency operations, or section 1206/1208 funds.

Therefore, the DASD(S&TS) stated that DoD does not intend to designate the Army as
an Executive Agent for NSRWA because it would not improve oversight or management
of NSRWA, and it would also incur unnecessary additional expenses. He also stated that
DoD does not plan to pursue further actions and does not consider any alternative actions
to be appropriate.

Our Response
The DASD(S&TS)’s comments were not responsive. He stated that the Army’s need to
make DoD-wide decisions is limited to specific procurement and support of aircraft as
delegated in the January 2010 USD(AT&L) Acquisition Decision Memorandum.
However, the Army should decide the NSRWA policy for DoD, and the Under Secretary
of Defense (Policy) should determine the policy for building U.S. partner-nation
capabilities. An Executive Agent designation will reduce bureaucracy and streamline

                              FOR OFFICIAL USE ONLY
                                        19
decisionmaking across the Services by giving the Army authority over the NSRWA
policy matters. According to DoD Directive 5101.1, an Executive Agent’s authority
takes precedence over the authority of other DoD Component officials that perform
related functions and responsibilities. DoD Directive 5101.1 further states that DoD
Executive Agents must be structured to permit the effective and efficient accomplishment
of assigned responsibilities, functions, and authorities. An Executive Agent designation
would also give the Army authority to make DoD-wide decisions, such as centralized
NSRWA acquisition management to include U.S. Special Operations Command NSRWA
acquisitions, and the authority to set airworthiness standards across the Services.

(FOUO) The DASD(S&TS) did not address that the Army has been unable to standardize
and coordinate airworthiness standards across DoD, an issue that could be resolved by a
DoD Executive Agent. In February 2011, the U.S. Army Audit Agency Report
No. A-2011-0060-ALM stated that variances existed between the airworthiness
requirements of the Army and those of the Air Force, and recommended that the
Secretary of Defense and Army leadership coordinate a memorandum of agreement to
develop a common airworthiness standard across the Services. Although the report stated
that the Secretary of Defense initiated an airworthiness study to resolve this issue, a
representative from the Joint Chiefs of Staff for Forces Structure, Resources, and
Assessment Directorate stated that the airworthiness study had not been completed as of
November 22, 2011. Airworthiness standards directly affect the life and safety of U.S.
and coalition forces as well as the United States’ mission to train U.S., Afghanistan, and
coalition forces.

Therefore, the Army and NSRWA Project Management Office need the authority to
make DoD-wide decisions on life and safety issues that affect the efficiency and
accountability of the NSRWA support as long as these efforts are required to support
partner nations. We request that the Deputy Assistant Secretary of Defense reconsider
his position and provide comments in response to the final report or provide an alternate
plan to address the unresolved airworthiness issues within DoD.

        b. Establish the non-standard rotary wing aircraft program as a long-term
effort and designate it with the necessary Defense acquisition program category.

Office of USD(AT&L) Comments
The DASD(S&TS) partially agreed. He agreed that the NSRWA program needs to
continue to support building partner-nation capability as long as required. He stated that
the January 2010 USD(AT&L) Acquisition Decision Memorandum did not limit the
duration of the NSRWA Project Management Office and that no consideration has been
given to abbreviate the effort.

However, he disagreed with designating the NSRWA program with an acquisition
category. He stated that the NSRWA program does not meet major Defense acquisition
program criteria nor does a special interest program designation equate to a designation
as a major Defense acquisition program under section 2430, title 10, United States Code.
He further stated that the type of funds used for the NSRWA program are not Research,

                             FOR OFFICIAL USE ONLY
                                       20
Development, Test, and Evaluation or Procurement appropriated funds. According to the
DASD(S&TS), many aspects of the Defense management processes and documentation
required of an acquisition program do not apply to the NSRWA program. This is because
U.S. partner nations determine their needs outside the formal requirements process, and
Afghan Security Forces Fund appropriations are managed with FMS procedures instead
of program-specific documents, such as an acquisition program baseline.

Additionally, the Deputy Assistant Secretary of Defense stated that the DoD acquisition
guidebook states that the Defense Acquisition Executive has the authority to designate
programs that do not meet major Defense acquisition program requirements as a special
interest program. The Deputy Assistant Secretary of Defense also stated that the
USD(AT&L) designated the NSRWA program as a special interest program without an
acquisition category. He further stated that the DoD acquisition guidebook allows the
Defense Acquisition Executive to tailor the requirements for a special interest program,
and the current special interest program designation provides effective oversight;
therefore, no further actions are planned for the NSRWA program.

NTM-A/CSTC-A Comments
Although not required to comment, the Deputy Commanding General, NTM-A/CSTC-A
agreed with establishing the NSRWA program as a long-term program. He did not fully
agree with the use of Defense acquisition categories for Afghan Security Forces Fund-
funded efforts because they are funded by overseas contingency operations and not with
Research, Development, Test, and Evaluation or Procurement appropriations. However,
he stated that if acquisition categories were directed for NSRWA, it should be by
platform and even by country.

Our Response
The DASD(S&TS)’s comments were partially responsive. The Deputy Assistant
Secretary of Defense and the Deputy Commanding General, NTM-A/CSTC-A agreed
that the NSRWA program should be a long-term effort and is needed to support DoD’s
effort to build U.S. partner-nation capabilities.

The DASD(S&TS) disagreed with designating the NSRWA program with an acquisition
category because it does not meet the criteria of a major Defense acquisition program as
stated in section 2430, title 10, United States Code. Although we realize that NSRWA
support will not meet the procurement fund threshold, a special interest program can be
required to comply with specific reporting requirements. According to section 10.10.1 of
the, “Defense Acquisition Guidebook,” the Defense Acquisition Executive has the
authority to require reporting requirements to meet specific oversight needs for special
interest programs. Although the NSRWA program was designated as a special interest
program without an acquisition category, the USD(AT&L) did not provide guidance on
reporting requirements.

The DASD(S&TS)’s alternative plan of action meets the intent of the recommendation.
However, we request that in response to the final report, the DASD(S&TS) provide
comments that identify the specific documentation and reporting requirements that will

                             FOR OFFICIAL USE ONLY
                                       21
be required for the NSRWA program. We also request that he provide the plan of action
and milestones for the documents and reporting requirements.

      c. Identify and develop the acquisition documents required for the
Non-Standard Rotary Wing Aircraft program.

Office of USD(AT&L) Comments
The DASD(S&TS) agreed. He stated that DoD will develop and provide guidance to the
Army that will establish documentation and reporting requirements specifically for the
NSRWA program. He anticipated that the guidance will be issued within 6 months.

NTM-A/CSTC-A Comments
Although not required to comment, the Deputy Commanding General, NTM-A/CSTC-A,
agreed that implementing acquisition documents for NSRWA program efforts not already
into or beyond production would be valuable. However, he stated that retroactively
creating acquisition documents for NSRWA programs beyond production and
deployment would not add value.

Our Response
Although the DASD(S&TS)’s comments were responsive, he did not state the specific
documentation and reporting requirements that will be required for the NSRWA program.
Therefore, we request that the DASD(S&TS) provide comments in response to the final
report that identify the critical acquisition documentation and reporting requirements
required for the NSRWA program. We also request that he provide the plan of action
and milestones for the documents and reporting requirements.

       d. Coordinate with the United States Special Operations Command and the
North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan to develop an overall long-term
acquisition strategy that will require that all non-standard rotary wing aircraft
contractual requirements be sent to a single contracting command and identify a
timeline for transitioning all remaining contracts.

Office of USD(AT&L) Comments
The DASD(S&TS) partially agreed. He stated that management of all NSRWA
procurement and support activities should be consolidated; however, he disagreed with
issuing “unqualified, general guidance” to send all contracts to a single contracting
command. He explained that while the January 2010 USD(AT&L) Acquisition Decision
Memorandum required that the Army establish a single Service-level program
management office, it also stipulated that the other Services must coordinate with the
Program Management Office to transition all relevant procurement and support activities
in an orderly fashion. He stated that all Mi-17 contracts have either been completed or
transitioned to the Army Contracting Command-Redstone, under program management
office oversight, with management of other types of non-standard aircraft still in
transition. He then noted that contract novation could add cost or cause delays to the

                            FOR OFFICIAL USE ONLY
                                      22
current contracts, and that transitioning contracts where performance is nearly complete
would provide no value.

Additionally, the DASD(S&TS) stated that he will require the NSRWA Program
Management Office to report the status of all procurement and support contracts on a
recurring basis as part of the reporting guidance in Recommendation 1.c. He further
stated that these reports will include planned contract transitions or closeout status within
6 months.

NTM-A/CSTC-A Comments
Although not required to comment, the Deputy Commanding General, NTM-A/CSTC-A,
agreed. However, he stated that NTM-A/CSTC-A may transition contracting activity for
future sustainment of NSRWA to the Afghans. He also stated that our recommendation
should be modified to allow the possibility to transition future sustainment efforts to the
Afghans.

Our Response
The DASD(S&TS)’s comments were partially responsive. The intent of this
recommendation was not to cause contract novation, but to facilitate an orderly transition,
with the corresponding oversight, of NSRWA requirements to the NSRWA Program
Management Office. However, during our audit, we did not find any formal plans to
ensure that the program management office took effective control over applicable
NSRWA contracts in an orderly fashion. Also several contracts were issued by other
activities after the NSRWA Program Management Office was established.

(FOUO) The DASD(S&TS)’s comments also did not provide an explanation on how the
NSRWA Program Management Office plans to transition to Army Contracting
Command-Redstone or how they will handle future NSRWA contracts from other DoD
Activities, such as the U.S. Special Operations Command and NTM-A/CSTC-A. During
the audit, we identified more than $630 million in future U.S. Special Operations
Command NSRWA requirements and $282 million for future Afghanistan NSRWA
requirements. Additionally, we also received comments from the Deputy Commander
General, NTM-A/CSTC-A, indicating that he agreed that a single contracting command
for NSRWA requirements would be beneficial. The Deputy Commander General,
NTM-A/CSTC-A, suggested we modify our recommendation to allow the possibility to
transition future sustainment efforts to the Afghanistan Government.

We request that the DASD(S&TS) provide comments in response to the final report that
indicate how orderly transition of all NSRWA contracts to the NSRWA Project
Management Office will occur including NTM-A/CSTC-A and U.S. Special Operations
Command contracts.




                              FOR OFFICIAL USE ONLY
                                        23
       e. Require the Non-Standard Rotary Wing Aircraft Project Management
Office to implement target affordability and control cost growth, incentivize
productivity and innovation in industry, and promote real competition as required
by the November 3, 2010, “Implementation Directive for Better Buying
Power-Obtaining Greater Efficiency and Productivity in Defense Spending,”
memorandum.

Office of USD(AT&L) Comments
The DASD(S&TS) partially agreed. He stated that the goals in the November 3, 2010,
USD(AT&L) memorandum, “Implementation Directive for Better Buying Power
Obtaining Greater Efficiency and Productivity in Defense Spending,” (Better Buying
Power Memorandum) were relevant, but disagreed with making these goals mandatory
for the NSRWA program. He stated that the Better Buying Power Memorandum pertains
to Defense acquisition category programs or contracts for which DoD controls the
variables that enable the goals. He noted that the NSRWA program is not automatically
required to comply with the memorandum because it is a special interest acquisition, and
not an acquisition category program.

The DASD(S&TS) further stated that DoD’s long-term goal is for U.S. partner nations to
use equipment that is built and supported by U.S. companies. However, he said that
partner nations and FMS customers generally stipulate a required product, which can
limit competition and impede DoD’s ability to implement the Better Buying Power
Memorandum goals. According to the DASD(S&TS), transitioning to U.S. manufactured
products would enable the goals stated in the Better Buying Power Memorandum, and
that DoD would apply the premises of the memorandum when applicable and appropriate
to the NSRWA program.

NTM-A/CSTC-A Comments
Although not required to comment, the Deputy Commanding General, NTM-A/CSTC-A
agreed. He stated that NTM-A/CSTC-A was working with the NSRWA Program
Management Office to develop a long-term sustainment strategy and contract for the
Mi-17. He stated that all NSRWA for the Afghan Air Force will be competed, which is
in compliance with the Better Buying Power Memorandum.

Our Response
The DASD(S&TS)’s comments were partially responsive. The DASD(S&TS)’s
comments indicate a lack of action to strategically plan for the procurement and support
activities of future NSRWA purchases that we estimated to be as much as $1 billion. The
purpose of the Better Buying Power Memorandum is to obtain greater efficiency and
productivity in Defense spending by pursuing initiatives in five areas, including targeting
affordability and control cost growth, and reducing nonproductive processes and
bureaucracy. This memorandum specifically tasked the Secretaries of the Military
Departments, as well as the Directors of Defense agencies, to implement actions to
support the guidance from the Better Buying Power Memorandum that USD(AT&L) had
previously provided to Defense acquisition professionals. Additionally, we received
comments from the Deputy Commander General, NTM-A/CSTC-A, indicating that he

                             FOR OFFICIAL USE ONLY
                                       24
agreed with Recommendation 1.e, and that NTM-A/CSTC-A will implement some of the
principles, such as competition, in their acquisitions.

The intent of this recommendation was to have the NSRWA Program Management
Office apply the goals of the Better Buying Power Memorandum to the maximum extent
possible to the program. Therefore, we request that the DASD(S&TS) reconsider his
position and provide comments in response to the final report. His comments should
indicate how the NSRWA Program Management Office can apply the relevant principles
contained in the Better Buying Power Memorandum as implemented by the guidance that
his office will provide to the NSRWA Program Management Office.

2. We recommend that the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology issue a formal charter for the Non-Standard Rotary Wing
Project Manager to include the updated requirements and authorities provided to
the U.S. Army.

ASA(ALT) Comments Required
The ASA(ALT) did not comment on a draft of the report. We request that the
ASA(ALT) provide comments on the final report.

Management Comments on the Internal Controls and
Our Response
The DASD(S&TS) disagreed with the internal controls section of the report. He stated
that the USD(AT&L) designated the NSRWA Project Management Office as a special
interest program, which is subject to the same internal controls as other aviation program
offices. He also stated that the Project Management Office was funded by various
appropriations and sources that are subject to internal controls as well. However, the
DASD(S&TS) agreed to develop and provide guidance to the Army that will establish
documentation and reporting requirements to fit the special interest program within
6 months.

Our Response
We found internal control weaknesses in the management and oversight of the NSRWA
program. The NSRWA Project Management Office did not have an internal control plan
and no required documentation or guidance was provided to the NSRWA Program
Management Office to ensure overall internal controls. Therefore, DoD needs to
implement a comprehensive internal control system to ensure that long-term plans are
developed and formal guidance is provided for the NSRWA program. In addition,
verifying the funding status of an FMS case does not ensure that overall internal controls
exist for the NSRWA program. Improved internal controls are needed to track
DoD-owned and -supported Mi-17s, their total ownership costs, and all planned future
requirements.




                             FOR OFFICIAL USE ONLY
                                       25
Management Comments on the Appendices and Our
Response
The DASD(S&TS) recommended corrections to Appendix B and C of the report. He
provided the names of the offices that managed the Mi-17 pseudo-FMS cases listed in
Appendix B and the status of M-17 related contracts listed in Appendix C.

Our Response
We did not revise the appendices because our intent was to show how we calculated the
total dollar figures for the 32 cases and 34 contracts identified in the report. We did not
audit these cases and contracts or determine which specific commands managed them.




                              FOR OFFICIAL USE ONLY
                                        26
Appendix A. Scope and Methodology
We conducted this performance audit from October 2010 through October 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted interviews and gathered documentation covering the period from 2005 to
2011 to gain an understanding of DoD officials’ management and acquisition of
NSRWA, specifically the Mi-17. We interviewed officials responsible for establishing
the NSRWA Project Management Office, providing direction and oversight, acquisition
planning, and fulfilling Mi-17 NSRWA requirements. We conducted interviews or
coordinated with the following organizations:

      NSRWA Project Management Office;
      Office of the USD(AT&L);
      Office of the Under Secretary of Defense for Policy;
      Office of the Under Secretary of Defense for Cost Assessment and Program
       Evaluation;
      DoD Office of the General Counsel;
      U.S. Central Command;
      U.S. Special Operations Command;
      Joint Chiefs of Staff, Force Structure, Resources, and Assessment Directorate
       (J-8);
      Army Operations, Plans, and Training (G-3/5/7);
      Office of the ASA(ALT);
      Program Executive Office for Aviation;
      U.S. Army Acquisition Support Center;
      CNTPO; and
      Defense Security Cooperation Agency

We obtained information regarding Mi-17-related contracts and funds, Mi-17 quantities
and locations, and NSRWA Project Management Office funding and structure through
documents and testimonial evidence provided by the NSRWA Project Management
Office, U.S. Central Command, U.S. Special Operations Command, and CNTPO
officials. We obtained Mi-17-related pseudo-FMS cases for Afghanistan, Iraq, Pakistan,
and Yemen from DSCA.

For NSRWA Project Management Office acquisition, planning, and oversight, we
reviewed the USD(AT&L) Acquisition Decision Memorandum; ASA(ALT) memoranda;
and documentation from the NSRWA Project Management Office. In addition, we
reviewed the Secretary of the Army Public Interest Determination and Finding for the
Mi-17 to identify the future Mi-17 procurements that the NSRWA Project Management

                             FOR OFFICIAL USE ONLY
                                       27
Office has planned. We reviewed lists of contracts or cases from the NSRWA Project
Management Office, TSMO, Defense Security Cooperation Agency, CNTPO, U.S.
Central Command, and U.S. Special Operations Command to determine estimated value
of the Mi-17 program and the number of Mi-17s that have been procured for
Afghanistan, Iraq, Pakistan and Yemen. We reviewed the documents for compliance
with the Federal Acquisition Regulation, Defense Federal Acquisition Regulation
Supplement, DoD directives and instructions, Defense Acquisition Guide, Army
regulations, Army Acquisition Career Field Certification policies and procedures, and
USD(AT&L) and ASA(ALT) memoranda.

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site
and the DSCA Security Cooperation Information Portal. However, we did not perform a
formal reliability assessment of these systems because the computer-processed data used
was not material to our findings, conclusions, or recommendations.

Electronic Document Access is a Web-based system that provides secure online access,
storage, and retrieval of contracts and contract modifications to authorized users
throughout DoD. We obtained documents from the Electronic Document Access system
to verify contracts and contract values provided by DoD officials.

Additionally, DSCA provided Mi-17 cases reports from the Security Cooperation
Information Portal, containing case numbers, values, and descriptions. This portal
enables international customers and U.S. Government personnel to view Foreign Military
Sales case, requisition, and supply discrepancy report-level information. We then
compared these Mi-17 case numbers and their values with lists provided by DoD
officials. As a result of our analysis, we concluded that data collected from the
Electronic Document Access Web site and the DSCA Security Cooperation Information
Portal were sufficiently reliable for the purpose of verifying the contracts and their values
provided by DoD officials.

Prior Coverage
During the last 5 years, the DoD Inspector General (DoD IG) and the U.S. Army Audit
Agency issued two reports related to our audit objective. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit/reports. Unrestricted Army reports can be
accessed from .mil and gao.gov domains at https://www.aaa.army.mil/.

DoD IG
DoD IG Report No. D-2009-050, “Distribution of Funds and the Validity of Obligations
for the Management of the Afghanistan Security Forces Fund Phase II,” February 5, 2009

U.S. Army Audit Agency
(FOUO) U.S. Army Audit Agency Report No. A-2011-0060-ALM, “Airworthiness and
Flight Safety,” February 11, 2011


                              FOR OFFICIAL USE ONLY
                                        28
Appendix B. Mi-17 Pseudo-FMS Cases 

            Case No.            Country
          G5-B-UEV             Afghanistan
          G5-B-UDJ             Afghanistan
          G5-B-UDH             Afghanistan
          G5-B-UDG             Afghanistan
          G5-B-UDD             Afghanistan
          G5-B-UAQ             Afghanistan
          E6-P-SBU             Afghanistan
           E6-B-UDL            Afghanistan
          E6-B-UCJ             Afghanistan
          E5-B-UBV             Afghanistan
          E3-P-GBI             Afghanistan
          E3-B-UBW             Afghanistan
          E3-B-UBP             Afghanistan
           B6-P-GCM            Afghanistan
           B6-B-FCP            Afghanistan
           G5-P-SAH            Afghanistan
           E6-P-LGB            Afghanistan
           E6-P-LCR            Afghanistan
           E6-B-UBP            Afghanistan
           E3-B-UBE            Afghanistan
           B2-B-AAV            Afghanistan
           B6-B-FCO            Afghanistan
           B6-B-FCV            Afghanistan
           B6-B-ABV            Afghanistan
           G5-B-UBD            Afghanistan
           B7-B-AAY               Iraq
           E4-B-UBF               Iraq
           G8-B-UBF               Iraq
           B4-P-ABB             Pakistan
          B9-B-UDM              Pakistan
          G4-B-BOD              Pakistan
          G7-B-UAW               Yemen




               FOR OFFICIAL USE ONLY
                         29
Appendix C. Mi-17 Contracts 

   Contracting Activity                Contract No.                         Award Date
     SMDC/ARSTRAT                W9113M-07-D-0006-0032                   September 30, 2009
     SMDC/ARSTRAT                W9113M-07-D-0006-0044                   September 30, 2009
     SMDC/ARSTRAT                W9113M-07-D-0006-0055                   September 30, 2010
     SMDC/ARSTRAT                W9113M-07-D-0007-0015                   September 23, 2008
     SMDC/ARSTRAT                W9113M-07-D-0007-0020                   September 26, 2008
     SMDC/ARSTRAT                W9113M-07-D-0007-0021                   September 30, 2008
     SMDC/ARSTRAT                W9113M-07-D-0007-0022                   September 30, 2008
     SMDC/ARSTRAT                W9113M-07-D-0007-0035                   September 30, 2009
     SMDC/ARSTRAT                W9113M-07-D-0007-0040                      July 21, 2010
     SMDC/ARSTRAT                W9113M-07-D-0007-0061                   September 30, 2010
     SMDC/ARSTRAT                W9113M-07-D-0008-0024                   September 30, 2010
     SMDC/ARSTRAT                W9113M-07-D-0009-0002                   September 30, 2008
     SMDC/ARSTRAT                W9113M-07-D-0009-0005                   September 30, 2010
        ACC-R                      W58RGZ-09-C-0028                       October 27, 2008
        ACC-R                    W58RGZ-09-D-0130-0102                   September 28, 2010
        ACC-R                      W58RGZ-11-C-0072                         May 26, 2011
       PEO-STRI                    W900KK-08-C-0011                      December 18, 2007
       PEO-STRI                  W900KK-09-D-0002-0001                    February 5, 2009
       PEO-STRI                  W900KK-09-D-0002-0002                     August 28, 2009
       PEO-STRI                  W900KK-09-D-0002-0003                      April 7, 2010
       PEO-STRI                  W900KK-09-D-0320-0002                      April 15, 2011
         KRCC                      W91B4M-11-A-0001                       October 20, 2010
         KRCC                      W91B4M-10-A-0003                       February 10, 2010
         KRCC                      W91B4M-10-A-0004                       February 10, 2010
         KRCC                      W91B4M-10-A0005                        February 10, 2010
         KRCC                      W91B4M-11-C-0007                       December 7, 2010
        AFSOC                       FA0021-10-C0010                         July 14, 2010
       USSOCOM                      H92222-09-C0048                      September 25, 2009
        SOFSA                     H92254-09-D-0001-116                     October 1, 2010
        SOFSA                    USZA22-03-D-0006-7810                     October 1, 2007
        SOFSA                    USZA22-03-D-0006-7811                     October 1, 2007
        SOFSA                    USZA22-03-D-0006-8602                     October 1, 2008
        SOFSA                    USZA22-03-D-0006-8603                     October 1, 2008
        SOFSA                    USZA22-03-D-0006-8969                   September 28, 2009
SMDC/ARSTRAT         U.S. Army Space and Missile Defense Command/Army Forces Strategic Command
ACC-R                U.S. Army Contracting Command-Redstone
PEO-STRI             Program Executive Office Simulation, Training and Instrumentation
KRCC                 Kabul Regional Contracting Center
AFSOC                Air Force Special Operations Command
USSOCOM              U.S. Special Operations Command
SOFSA                Special Operations Forces Support Activity

                            FOR OFFICIAL USE ONLY
                                      30
Appendix D. Defense Acquisition Criteria
According to the Defense Acquisition Guidebook, the Defense acquisition system exists
to manage the DoD investments in technologies, programs, and product support
necessary to achieve the DoD’s strategy. The objective is to rapidly acquire quality
products that satisfy user needs with measurable improvements to mission capability at a
fair and reasonable price. The fundamental principles and procedures that DoD follows
in achieving those objectives are described in DoD Directive 5000.01 and DoD
Instruction 5000.02.

Acquisition Directive
DoD Directive 5000.01 states that the Defense acquisition system is the management
process used by DoD to provide effective, affordable, and timely systems to the users.
DoD Directive 5000.01 also states than an acquisition program is a directed, funded
effort that provides a new, improved, or continuing materiel, weapon or information
system, or service capability in response to an approved need.

DoD Directive 5000.01 defines the management structure for an acquisition program.
The Defense Acquisition Executive is the USD(AT&L) and has the responsibility for
supervising the Defense acquisition system. Additionally, the Defense Acquisition
Executive takes precedence on all acquisition matters after the Secretary and Deputy
Secretary of Defense. The Milestone Decision Authority is the designated individual
with overall responsibility for a program. The Milestone Decision Authority has the
authority to approve entry of an acquisition program into the next phase of the acquisition
process and is accountable for cost, schedule, and performance reporting to a higher
authority, including Congressional reporting.

Acquisition Instruction
DoD Instruction 5000.02, issued December 8, 2008, establishes a framework to manage
acquisition programs and states that the defense acquisition system provides a simplified
and flexible management framework for translating capability needs and technology
opportunities into stable, affordable, and well-managed acquisition programs.

DoD Instruction 5000.02 implements the requirements of the DoD acquisition system
outlined in DoD Directive 5000.01 and establishes the total program cost thresholds in
FY 2000 constant dollars for DoD acquisition programs. Defense acquisition programs
are grouped into the following acquisition categories:

      Category I–costs of more than $365 million in Research, Development, Test, and
       Evaluation funds; more than $2.19 billion in procurement; or a designation by the
       Milestone Decision Authority as a special interest;
      Category II–costs of more than $140 million in Research, Development, Test and
       Evaluation or more than $660 million in procurement; or
      Category III–costs do not meet the criteria for Defense acquisition category II
       programs or above.

                             FOR OFFICIAL USE ONLY
                                       31
Required Acquisition Documentation
Table D-1 shows examples of required documents for any Defense acquisition program.*

              Table D-1. Examples of Required Defense Acquisition Documents
                   Information Requested                When Required
            Acquisition Strategy                Milestone B
            Acquisition Decision Memorandum     Milestone A, B, C or Each
                                                Review
            Analysis of Alternatives            Milestone A
            Affordability Assessment            Milestone B
               Study Guidance                   Material development decision
               Study Plan                       Immediately after material
                                                development decision
            Life Cycle Sustainment Plan         Milestone B
               (part of acquisition strategy)
            Acquisition Program Baseline        Milestone B
            Capability Development Document     Milestone B
            Technology Readiness Assessment     Milestone B
            Capability Production Development   Milestone C




*
    For a complete list, see Enclosure 4 of DoD Instruction 5000.02.

                                     FOR OFFICIAL USE ONLY
                                               32
